CERTIFICATE OF COMPLIANCE
NO.

Xiao-Ying Yu
Petitioner
v.
Maryland Department of Health, Secretary Robert R. Neal, and
Maryland Department of Budget and Management,
Secretary David Brinkley

Respondent.

As required by Supreme Court Rule 33.1(h), I certify that the
Supplemental Brief of Petition for Writ of Certiorari contains 1,472 words,
excluding the parts of the petition that are exempted by Supreme Court Rule
33.1(d) and (g-iv).
I declare under penalty of perjury that the forgoing is true and correct.
Executed on September 20, 2019

Xiao-Ying Yu, pro se.
Mailing address
P.O. Box 293
Abingdon, MD 21009
(410)671-9823

